No. 20-1334

In the Supreme Court of the United States
BRADLEY BOARDMAN, ET AL.
PETITIONERS,

v.
JAY INSLEE, ET AL.,

CERTIFICATE OF
WORD COUNT

RESPONDENTS.

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying State Respondents’ Brief In Opposition with Appendix, which was
prepared using Century Schoolbook 12-point typeface, contains 8,668 words,
excluding the parts of the document that are exempted by Rule 33.1(d). This
certificate was prepared in reliance on the word-count function of the wordprocessing system (Microsoft Word) used to prepare the document.
I am a member of the Bar of the Supreme Court of the United States.
DATED this 1st day of July 2021.
s/Noah G. Purcell

NOAH G. PURCELL
Solicitor General
Counsel of Record
1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

